National Aeronautics and
Space Administration

Office of Inspector General
Washington, DC 20546-0001


                                                   March 31, 2008

TO:                 Associate Administrator for Aeronautics Research

FROM:               Assistant Inspector General for Auditing

SUBJECT:            Final Memorandum on the Review of the National Aviation Operations
                    Monitoring Service (Report No. IG-08-014; Assignment No. S-08-004-00)


On October 22, 2007, The Washington Post published an Associated Press news article,
“NASA Sits on Air Safety Survey,” 1 concerning NASA’s denial of a Freedom of
Information Act (FOIA) request for the data collected via the National Aviation
Operations Monitoring Service (NAOMS). One of the reasons cited for the denial was
that the “[r]elease of the requested data, which are sensitive and safety-related, could
materially affect the public confidence in, and the commercial welfare of, the air carriers
and general aviation companies whose pilots participated in the survey.” That statement
and the implication that the Federal Government spent taxpayer dollars to gather safety
data that NASA was withholding to protect commercial interests prompted a
congressional inquiry.

On October 31, 2007, the NASA Administrator appeared before the House Committee on
Science and Technology, along with the NAOMS principal investigator; the NAOMS
Project survey methodologist; and the Executive Air Safety Chairman of the Air Line
Pilots Association, International (ALPA), 2 to answer questions concerning NAOMS and
the survey data. Subsequently, the Office of Inspector General (OIG) initiated this
review of NAOMS, with the overall objective of reviewing the management of NAOMS.
We focused on understanding the history and status of NAOMS, to include its objectives,
funding, and plans for using the NAOMS survey data. See Enclosure 1 for details on our
scope and methodology.

Executive Summary
The genesis of NAOMS was rooted in the February 12, 1997, White House Commission
on Aviation Safety and Security’s “Final Report to President Clinton.” For the next

1
    Rita Beamish, “NASA Sits on Air Safety Survey,” The Washington Post, October 22, 2007 (accessible as
    of February 1, 2008, at
    http://www.washingtonpost.com/wp-dyn/content/article/2007/10/22/AR2007102200100.html).
2
    ALPA is the largest airline pilot union in the world and represents 60,000 pilots who fly for 43 U.S. and
    Canadian airlines.
                                                                                                           2



several years, NASA collaborated with the Federal Aviation Administration (FAA) and
the National Transportation Safety Board to examine options and make recommendations
concerning potentially useful technologies. Technologies recommended for the
identification of existing accident precursors in the aviation system and for forecasting
potential safety issues, which NASA developed in parallel and interdependence, became
the Aviation System Monitoring and Modeling (ASMM) Project.

The ASMM Project, established in 1999, consisted of four elements: Data Analysis
Tools, Intramural Monitoring, Extramural Monitoring, and Modeling and Simulations.
The Extramural Monitoring element of ASMM consisted of NAOMS and the Aviation
Safety Reporting System (ASRS). Because ASRS is a voluntary reporting system and
not suitable for comparative statistical analysis of changes in the safety of the National
Aviation System, ASMM Project management designed NAOMS to complement and
enhance the ASRS information. NAOMS would include survey data from pilots,
mechanics, air traffic controllers, and others, which could provide insights into the
performance and safety of the National Aviation System. By routinely evaluating the
data, decision makers of the aviation community could quantitatively measure safety,
assess trends, identify factors driving those trends, and evaluate the effects of new
technologies and procedures introduced into the National Aviation System.

NASA’s Ames Research Center contracted with Battelle Memorial Institute (Battelle) to
develop NAOMS in fiscal year (FY) 1998 as an additional task under the established
ASRS contract. Research and development for a NAOMS survey took place through
FY 1999 and into FY 2000. In early 2000, Battelle concluded a field trial of the survey
that included 630 responses from air carrier pilots. After Battelle incorporated
suggestions and recommendations from aviation community stakeholders, it began the
large-scale NAOMS research by implementing the air carrier pilot survey in April 2001.
Battelle extended the survey to general aviation pilots the following year. The NAOMS
survey was not implemented among any of the other intended survey groups.

Collection of the NAOMS survey data concluded in December 2004. Approximately
30,000 surveys had been completed, consisting of approximately 25,000 air carrier pilot
interviews and 5,000 general aviation pilot interviews. Although Battelle and NAOMS
Project management had done preliminary analysis of the data, working groups designed
to validate the data did not accomplish this goal. As a result, the value of the NAOMS
survey data as a potential contributor to the prevention of aviation mishaps has not been
determined.

In 2004, NAOMS Project management began work to transition NAOMS to a Web-based
application and prepare it for permanent service. The Joint Implementation Data
Analysis Team (JIMDAT) of the Commercial Aviation Safety Team (CAST) 3 showed

3
    The JIMDAT monitors the implementation of aviation safety enhancements and suggests modifications
    and changes to CAST, whose aim is to reduce the risk of commercial aviation fatalities in the United
    States. CAST is composed of aviation community and Government representatives.
                                                                                                        3



particular interest in the NAOMS Project for monitoring and measuring safety
enhancements introduced into the National Aviation System. Following the successful
demonstration of the application, ALPA offered to operate NAOMS on behalf of
CAST and accepted NAOMS as a Web-based application for permanent service in
January 2007.

Following the October 2007 publication of the Associate Press article, the NASA
Administrator appeared before the House Committee on Science and Technology on
October 31, 2007. Questions posed by Congress centered on the survey confidentiality
and the release of the data. The Administrator’s testimony included a promise to release
and publish the NAOMS data. On December 31, 2007, the redacted NAOMS survey
data were posted on NASA’s Web site. 4 Although the Web site contains some
previously unreleased information, the Web site does not adequately articulate the
purpose of the NAOMS Project and its relationship and contribution to the larger ASMM
Project.

We found that NAOMS Project management conducted the research, development, and
implementation of NAOMS in accordance with NASA Policy Directive (NPD) 7120.4A,
“Program/Project Management,” November 14, 1996, and NASA Procedures and
Guidelines (NPG) 7120.5A, “NASA Program and Project Management Processes and
Requirements,” April 3, 1998. 5 However, we found several project management
deficiencies that occurred over the life cycle of NAOMS. Specifically,

      •    NASA contracting officers did not adequately specify project requirements nor
           hold Battelle responsible for completing the NAOMS Project as designed or
           proposed;

      •    the contractor underestimated the level of effort required to design and implement
           the NAOMS survey;

      •    NASA had no formal agreement in place for the transfer and permanent service of
           NAOMS; and

      •    NAOMS working groups failed to achieve their objectives of validating the
           survey data and gaining consensus among aviation safety stakeholders about what
           NAOMS survey data should be released.

Additionally, we found that NASA had not adequately described the designed and
intended uses of NAOMS data. Specifically, as of February 2008, NASA had not

4
    http://www.nasa.gov/news/reports/NAOMS html (updated January 14, 2008; accessed February 4, 2008).
5
    NPD 7120.4A and NPG 7120.5A were the applicable guidelines for the NAOMS Project at its inception
    in 1998, and we used those documents for our review. The NPG was subsequently replaced by NASA
    Procedural Requirements (NPR) 7120.5 series, the current iteration of which is NPR 7120.5D, “NASA
    Space Flight Program and Project Management Requirements,” March 6, 2007.
                                                                                         4



published an analysis of the NAOMS data nor adequately publicized the details of the
NAOMS Project and its primary purpose as a contributor to the ASMM Project.
Consequently, the NAOMS survey data, which were intended to be just one part of the
ASMM Project, could potentially be taken out of context and misunderstood in relation to
identifying aviation risk.

The Government may have missed an opportunity to foster a deeper understanding of the
aviation safety environment from 2001 through 2004 because its working groups were
unable to reach a consensus on the validity or value of the NAOMS data. As a result,
NASA was reluctant to publish a report detailing research and conclusions garnered from
the collected NAOMS survey data.

Our February 19, 2008, draft of this memorandum recommended that the Associate
Administrator for the Aeronautics Research Mission Directorate (ARMD) take the lead
concerning NAOMS data and determine whether the data were useful for NAOMS’
intended purpose: to produce data from which trends might be identified and considered
in concert with other ASMM activities. Additionally, we recommended that the
Associate Administrator for ARMD ensure that NAOMS Project research is published
and that he make NAOMS-related information available to all interested parties.

In commenting on the draft of this memorandum (see Enclosure 3), the Associate
Administrator concurred with our recommendation to determine whether NAOMS
accomplished its intended purpose of producing data from which aviation safety trends
might be identified, as well as our recommendation to release and post on NASA’s public
Web site NAOMS-related information. We consider these two recommendations
resolved.

The Associate Administrator nonconcurred with our recommendation to publish a
detailed report analyzing the NAOMS research, to include findings and conclusions
gained from the survey data, preferring to focus resources on better understanding the
validity of the survey methodology. Management’s planned action is partially responsive
to the intent of our recommendation, which was to provide closure for the NAOMS
Project. Accepting the Associate Administrator’s view that understanding the validity of
the NAOMS survey methodology may prove to be the most valuable component of the
NAOMS Project, we revised the draft recommendation. Our revised recommendation
makes the publication of a detailed report analyzing the NAOMS research contingent
upon the results of ARMD’s planned independent assessment of the NAOMS
methodology. We request that management provide additional comments in response to
this revised recommendation by April 30, 2008.

Background
Following the publication of the White House Commission on Aviation Safety and
Security’s “Final Report to President Clinton,” February 12, 1997, President Clinton
announced that NASA had agreed to participate in research and development that would
enable the achievement of the accident reduction goals cited in the report. In
                                                                                                        5



collaboration with the FAA and the National Transportation Safety Board, NASA formed
the Aviation Safety Investment Strategy Team. The team held a series of workshops,
which included active participation from aviation manufacturers and operators and
university, industry, and other governmental safety and research laboratories, to examine
options and make recommendations concerning potentially useful technologies.
Technologies recommended for identifying existing accident precursors in the aviation
system and for forecasting potential safety issues, which NASA developed in parallel and
interdependence, became the ASMM Project.

In 1999, the ASMM Project developed into an ambitious research project whose goal was
to provide decision makers of the aviation community – air carriers, air traffic
management, and other air service providers – with regular, accurate, and insightful
measures of the health, performance, and safety of the National Aviation System. The
ASMM Project was one of five projects of NASA’s Aviation Safety Program (AvSP) and
was primarily concerned with gathering and using data on incidents and normal
operations to identify the precursors to accidents. The other four projects aimed
primarily at developing solutions to problems identified as causes of accidents.

The ASMM Project consisted of four elements: Data Analysis Tools, Intramural
Monitoring, Extramural Monitoring, and Modeling and Simulations. 6 ASMM Project
management designed the four elements to be interdependent and interrelated. Each
element consisted of at least one product that had some stand-alone capability. However,
the intent and value of ASMM was as an integrated suite of tools that would support the
goal of proactive management of aviation safety. Figure 1 illustrates how each element
was intended to attain that goal.




6
    For the first 2 years, 1999–2001, ASMM had an element called Information Sharing, and Data Analysis
    Tools and Intramural Monitoring was one element. During a re-scoping study at the end of FY 2001, the
    Information Sharing element was eliminated and the Data Analysis Tools and Intramural Monitoring
    element was separated into individual elements, maintaining the four-element structure of ASMM.
                                                                                                          6


               Figure 1. Aviation System Monitoring and Modeling Project


                               Support Proactive Management of Aviation Safety
  Goal

                      Identify causal factors,               Provide health,
                     accident precursors, and            performance, and safety     Ensure seamless
 Objectives                                                   information to       aviation information
                    off-nominal conditions in
                                                             decision makers              services
                     the aviation safety data




 Elements


               Data Analysis             Intramural               Extramural            Modeling &
                   Tools                 Monitoring               Monitoring            Simulations




                                                 Source: September 15, 2000, ASMM Project Plan


The Extramural Monitoring element of ASMM, which provided for upgrading ASRS and
improving its capabilities, consisted of NAOMS and ASRS. ASRS was first
implemented in April 1976. The ASRS infrastructure was fully modernized in order to
process reports more efficiently and allow for the extraction of critical information from
the received incident reports. Because ASRS is a voluntary reporting system and not
suitable for statistically valid trend analysis, NAOMS was designed to complement and
enhance the ASRS information and to provide a source for comparative statistical
analysis.

NAOMS Objectives. ASMM Project management intended NAOMS to meet the goals
and objectives of the Extramural Monitoring element of ASMM by implementing a
system of continuous surveys of various groups within the National Aviation System.
NAOMS would include survey data from pilots, mechanics, air traffic controllers, and
others, collected at regular intervals, to gain insightful measures of the performance and
safety of the National Aviation System. By routinely evaluating the data, decision
makers within the aviation community could quantitatively measure safety, assess trends,
identify factors driving those trends, and evaluate the effects of new technologies and
procedures introduced into the National Aviation System.

ASMM Project management expected to incorporate the NAOMS survey data into a
comprehensive model that could be used to reduce the aviation accident rate. While
providing important information within the Extramural Monitoring element of ASMM,
the NAOMS data were never intended to stand alone. The intent was that trends and
                                                                                                           7



findings indicated by the NAOMS survey data would require additional corroboration
and investigation.

Development and Implementation of the NAOMS Project. ASMM Project
management established aggressive goals for the development and implementation of the
NAOMS surveys and the associated improvements to ASRS. As described in the
FY 1999 Extramural Monitoring Project Plan and the September 15, 2000, ASMM
Project Plan (the Project Plans), by the end of FY 2004, concurrent with upgrading
ASRS, NAOMS was to have incorporated the surveys of air carrier flight crews, air
traffic controllers, cabin crews, mechanics, and general aviation pilots and was to be
transferred to an organization external to NASA for permanent service.

NASA’s Ames Research Center contracted with Battelle to develop NAOMS in FY 1998
as an additional task under the established ASRS contract. Research and development of
the initial survey took place through FY 1999 and into FY 2000. The survey contained
four sections. Section A, “Background Questions,” related to the surveyed pilots’
experiences, such as hours and legs flown, aircraft flown, crew position, etc. Section B,
“Safety Related Events,” was for benchmark safety events to be tracked over time.
Section C was designed as a flexible section to target a specific safety event or new
technological or procedural changes. Section D, “Questionnaire Feedback,” was for
survey respondents’ comments.

In early 2000, Battelle concluded a field trial that included 630 responses from air carrier
pilots. Battelle used the field trial to determine the feasibility of the concept and
presented the results to the FAA and other aviation community stakeholders at a NAOMS
Workshop in March 2000. The trial evaluated various modes of administering the
survey, including face-to-face, telephone, and mail-in survey, in addition to evaluating
recall period, sample size, and cost. The trial determined that interviews via telephone, a
recall time period between 4 and 8 weeks, and 8,000 to 9,000 interviews per year
sampled from the Airmen Certification Database 7 would provide statistically sound
results. Battelle concluded at the end of the trial that the NAOMS survey was a viable
method for collecting aviation safety data.

Battelle made changes to the survey based on recommendations from the survey
respondents and aviation community stakeholders and began the large-scale NAOMS
research by implementing the air carrier pilot survey in April 2001. By December 2002,
Battelle had completed nearly 12,000 interviews and preliminary analysis of the data.
Battelle also collected and analyzed data from general aviation pilots, which included 500
corporate and 500 rotorcraft pilots, as directed by a congressional earmark.
Concurrently, Battelle designed a draft air traffic controller survey.



7
    The FAA maintains an Airmen Certification Database of pilot names, which Battelle used to obtain its
    sample.
                                                                                                     8



NAOMS Project management realized by December 2002 that Battelle would not be able
to develop and implement surveys for mechanics and cabin crews before the end of
FY 2004, as designated in the Project Plans. NAOMS Project management directed
Battelle to place emphasis on preparing the air traffic controller survey for field testing;
implementing an efficiency plan to reduce costs associated with the air carrier pilot
survey; developing and distributing NAOMS-derived products to the aviation
community; and, ultimately, finding an organization to accept and establish NAOMS as a
permanent service. NAOMS Project management conceded that the NAOMS Project
would not be completed by the end of FY 2004 and that the development and
implementation of the additional surveys would require another organization to assume
the associated added costs.

In April 2003, NAOMS Project management tasked Battelle to explore cost reduction
measures that might be achieved using a Web-based application. Battelle conducted
research to determine the feasibility of a Web-based survey while continuing to collect
and analyze survey data from air carrier and general aviation pilots. By the end of the
project’s life cycle in December 2004, Battelle had collected data from approximately
25,000 air carrier pilot interviews and 5,000 general aviation pilot interviews.

In 2004, NAOMS Project management placed emphasis on transitioning NAOMS to an
interested external organization for permanent service because its parent program, the
Aviation Safety and Security Program (AvSSP), 8 was coming to its designed end. 9 The
JIMDAT showed particular interest in the NAOMS Project, but not in Section B of the
survey. Therefore, NAOMS Project management and Battelle designed a new set of
questions for Section C to demonstrate the capability of the survey to monitor and
measure safety enhancements introduced into the National Aviation System. Battelle
conducted 1,200 interviews and presented its analysis of the responses to the
CAST/JIMDAT. Subsequently, ALPA offered to operate NAOMS on behalf of CAST.
NASA continued funding the NAOMS Project and efforts continued through 2006 in
order to reduce costs associated with conducting the survey and developing and
demonstrating a viable Web-based survey. In January 2007, NAOMS Project
management transferred NAOMS to ALPA as a Web-based application.

NAOMS Funding. Our review of the funding found that funds spent on NAOMS
through its life cycle were in line with Battelle’s revised proposal (dated August 20,
1999) and with ASMM Project management’s original projection of $8.85 million for the
entire Extramural Monitoring element. NASA spent $11.23 million on NAOMS through
FY 2007.




8
    The AvSP had been renamed in FY 2003.
9
    AvSP/AvSSP had been funded to run from FY 2000 through FY 2004, at which time it was “designed
    to end.”
                                                                                                               9



Total expenditures attributed to the NAOMS Project were calculated using full cost
accounting 10 and include

       •    $2.79 million spent on NAOMS tasks added to the pre-existing ASRS contract
            with Battelle in FY 1998 and FY 1999;

       •    $6.05 million spent on the NAOMS contract for FY 2000 through FY 2004; and

       •    $1.03 million spent from FY 2005 through FY 2007 to transfer the NAOMS
            methods and technologies to an external organization in the form of a Web-based
            survey.

Execution of the NAOMS Project
We found that NAOMS Project management adhered to the provisions of project review
detailed in NPD 7120.4A and NPG 7120.5A. NAOMS Project management presented
the NAOMS concept, methodology, and results at various open forums and allowed for
the incorporation of recommendations and suggestions. NPD 7120.4A states that
evaluation of NASA projects shall be accomplished through a series of status reviews and
independent, or external, readiness reviews. These reviews are intended to enhance the
technical and programmatic success of NASA projects by applying the perspective and
experience of NASA and non-NASA experts. NPG 7120.5A requires each review and
assessment to ensure the benefits of peer experiences and perspectives and to provide
opportunities for customer participation. The chronology in Enclosure 2 shows that
NAOMS Project management presented appropriate information at various forums
attended by NASA program managers and national aviation stakeholders, including
the FAA.

We also found that NAOMS Project management achieved several objectives and goals
described in the Project Plans. One of the goals of ASMM was to transfer the methods
and technology to an interested, independent organization for permanent service, which
NAOMS Project management achieved. Additionally, NAOMS Project management
demonstrated a survey methodology to quantitatively measure aviation safety, tracked
trends in event rates over time, identified effects of new procedures introduced into the
operating environment, and generated interest and acceptance of NAOMS by some of the
aviation community as described in the Project Plans.




10
     NASA began budgeting and recording cost using full cost accounting procedures in FY 2004. The
     concept of full cost accounting ties all Agency direct costs, service costs, and General and Administrative
     costs to NASA’s programs and projects.
                                                                                           10



Deficiencies Noted in the Execution of the NAOMS Project
We found several deficiencies in the execution of the NAOMS Project. Specifically,

       •   NASA contracting officers did not adequately specify project requirements nor
           hold Battelle responsible for completing the NAOMS Project as designed or
           proposed;

       •   the contractor underestimated the level of effort required to design and implement
           the NAOMS survey;

       •   NASA had no formal agreement in place for the transfer and permanent service of
           NAOMS; and

       •   NAOMS working groups failed to achieve their objectives of validating the
           survey data and gaining consensus among aviation safety stakeholders about what
           NAOMS survey data should be released.

Additionally, we found that NASA had not adequately described the designed and
intended uses of NAOMS data. Specifically, as of February 2008, NASA had not
published an analysis of the NAOMS data nor adequately publicized the details of the
NAOMS Project and its primary purpose as a contributor to the ASMM Project.

Contracting Requirements and Performance Incentive. The initial NAOMS contract
with Battelle, and the 17 contract modifications between November 1999 and July 2004,
did not specify all NAOMS Project requirements as outlined in the Battelle proposal and
Project Plans and did not provide for performance incentives. An Ames Research Center
Memorandum for File, “Addendum to Acquisition Plan for Aviation Operations
Measurements Systems (AOMS),” June 24, 1999, 11 states the contract will be
performance-based; however, the contract did not provide for incentives or require
Battelle to complete the NAOMS Project as designed or proposed.

The Federal Acquisition Regulation (FAR), October 10, 1997, Part 35, described
contracting for research and development acquisitions, specifying that “the nature of
development work often requires a cost-reimbursement completion arrangement.” The
contracting officer chose a cost-plus-fixed-fee (CPFF) contract, which was appropriate
initially when overall NAOMS requirements were not adequately defined. However, the
Project Plans and the Battelle proposal defined the NAOMS requirements, which the
field trial confirmed. FAR Subpart 16.4, “Incentive Contracts,” describes cost,
performance, and delivery incentives that the contracting officer could have used to
motivate the contractor to attain the defined NAOMS Project goals and objectives.



11
     This document augmented the original Acquisition Plan, dated December 8, 1998.
                                                                                                             11



The Project Plans describe the design and incremental implementation of the NAOMS
survey to three primary groups: air carrier pilots; air traffic controllers, mechanics, and
cabin crews; and general aviation pilots. Similarly, Battelle’s “Mission Suitability
Proposal, Technical Services for Aviation Operational Measurement System (AOMS),”
July 12, 1999, describes the development and execution of NAOMS over a 3-year period.
It also showed three survey groups: air carrier pilots, general aviation pilots, and air
traffic controllers. Implementation of the air carrier pilot survey was proposed to begin
in the second half of the first year and continue through the end of the third year. Battelle
proposed implementing the air traffic controller survey and general aviation pilot survey
at the start of the second and third years, respectively, and continuing to the end of the
third year. In response to NASA’s “Deficiency Report and Clarification Report,” Battelle
submitted a revised proposal on August 20, 1999, that stated approximately 750
interviews were required to be collected monthly (8,000 to 9,000 annually) from each of
the three survey groups in order to collect a statistically significant sample. 12

In November 1999, NASA Ames Research Center entered into a CPFF contract with
Battelle for the development and execution of NAOMS. That contract tasked Battelle to
conduct a field trial, complete various pre-implementation steps in preparation for
conducting the post-field trial survey, and complete 2,125 air carrier pilot interviews.
The contract did not specify any other requirements, although other requirements were
described in the Project Plans and Battelle’s proposal. For example, the field trial,
concluded in January 2000, confirmed that 8,000 interviews per survey group would be
required, as suggested in Battelle’s proposal. However, no contract modification was
issued specifying that requirement or holding Battelle responsible for conducting that
number of interviews per survey group. Similarly, none of the modifications established
the requirement that Battelle implement the survey incrementally on an annual basis, as
specified by Battelle’s proposal and the Project Plans. Contract modifications over the
life cycle of NAOMS tasked Battelle with conducting varying numbers of interviews
with air carrier pilots and general aviation pilots, but not with air traffic controllers.

In addition, the choice of a CPFF contract precluded performance incentives. Several
Government Accountability Office (GAO) reports highlight the importance of
performance incentives in contracting. For example, “Further Actions Are Needed to
Strengthen Contract Management for Major Projects” (GAO-05-123, March 2005) 13
found that the Department of Energy could use performance incentives more effectively
for controlling costs and schedules. Although the initial contract tasked Battelle with
conducting 2,125 air carrier pilot interviews in the first contract year, the air carrier pilot
survey did not begin until April 2001, which was 17 months after the signing of the initial
NAOMS Project contract in November 1999. The addendum to the Acquisition Plan

12
     Battelle’s original proposal stated that NAOMS would be capable of detecting a 10 percent shift in the
     rate of incident occurrences with 80 percent or higher certainty. Following the field trial, NAOMS
     Project management changed the requirement to detecting a 10 percent shift in the rate of occurrences
     with 95 percent certainty, which resulted in a survey size estimate of 8,000 to 9,000 respondents per year.
13
     Unrestricted GAO reports are available over the Internet at http://www.gao.gov/.
                                                                                         12



states that incentives were not provided for because Battelle was a not-for-profit
corporation. However, performance incentives may have motivated Battelle to complete
NAOMS tasks on schedule, as defined in the Project Plans and Battelle’s proposal.

The NAOMS Project had a finite timetable that included requirements defined by the
Project Plans for which the contractor was only responsible for providing incremental
portions without the responsibility for a finished product. The Project Plans stated that
NAOMS would include survey data collected from three primary groups. Those surveys
would be implemented incrementally on an annual basis over 3 years. Battelle’s proposal
showed the same requirements. However, Battelle was not contracted to complete those
requirements and, therefore, was not responsible for completing the NAOMS Project.

Developing the NAOMS Survey. Battelle underestimated the level of effort required
to develop the NAOMS survey, which included incorporating suggestions and
recommendations from various stakeholders and resulted in a delay from survey
development to survey implementation. Battelle conducted the NAOMS field trial from
November 1999 through February 2000 and used the findings from the field trial to edit
and revise the questionnaire. Additionally, Battelle asked respondents to identify areas
that were unclear or needed improvement and to provide suggestions for topics that
should be dropped or added. For example, one suggestion was to break into separate air
and ground components the survey question: “During the last [time period] how many
times did you as a crewmember find that you were unable to communicate with A.T.C.
[Air Traffic Control] because of frequency congestion?” Subsequent surveys divided the
question into “while on the ground,” “while airborne in the terminal area,” and “while
en route” components. Battelle also considered comments provided by the aviation
community and Government agencies following the briefing of the field trial results in
March 2000.

As a result of incorporating suggestions and recommendations from the various
stakeholders, Battelle did not implement the air carrier pilot survey until more than a year
after the briefing of the field trial results. Additionally, implementation of the general
aviation pilot survey did not begin until August 2002 and was suspended by August
2003. Battelle was tasked to draft an air traffic controller survey, but that survey was
never implemented.

Transitioning NAOMS for Permanent Service. The September 15, 2000, ASMM
Project Plan complied with the customer collaboration and partnership agreement
requirements set forth in NPG 7120.5A by identifying and collaborating with partners
and intended end users of the ASMM Project products. Although NASA and FAA
collaborated on the development of ASMM, and the Project Plans identified the FAA as a
NAOMS customer and end user, there was no formal agreement between the agencies for
the permanent service of NAOMS. As a result, NAOMS Project management had to
actively find an organization to accept NAOMS for permanent service after the NAOMS
surveys had been developed and implemented. NPG 7120.5A did not require a formal
agreement, but we are not making a recommendation about this issue because draft
NPR 7120.8, “NASA Research and Technology Program and Project Management
                                                                                                              13



Requirements,” contains a provision to “[l]ist the external agreements necessary for R&T
[Research and Technology] Portfolio Project success and projected dates of approval.”

In December 2002, NAOMS Project management presented a NAOMS Project overview
to the NASA Aviation Safety and Security Program Office. The presentation included
Battelle’s preliminary analysis of the nearly 12,000 air carrier pilot interviews completed
since April 2001. As annotated on the presentation slide in Figure 2, NAOMS Project
management recognized that the NAOMS data indicated event rates greater than that of
other aviation safety databases. 14

               Figure 2. Rates of Takeoffs or Landings without Clearance from Tower



                   Rate per 1 Million Departures

                  250

                  200                                                       NAOMS data suggest
                                                                        approximately 909 flights per
                  150                                                   year systemwide land without
                                                                       clearance from the tower. ASRS
                  100                                 Land              recorded 530 landings without
                                                      Takeoff            clearance over the last year.
                    50

                     0
                               y
                             m
                       M all



                       id e
                            od
                      W rg
                           iu
                   Sm



                         La

                         eb
                         ed




                                        Source: December 5, 2002, presentation to AvSSP Office

The FAA was concerned with the results of the survey and the data presented, expressing
a lack of confidence in the survey methodology due to the event rates indicated by the
survey data. During our review, we noted a disparity between the stated goals of
NAOMS and the manner in which NAOMS Project management initially presented the
data to the FAA. In an April 2003 presentation to the FAA in Washington, D.C.,
NAOMS Project management stated that the goal of NAOMS was to create a new
national capability that would quantitatively

       •    track aviation safety trends [emphasis added];

14
     Depending on the specific event, rates were presented in various formats, such as the number of events
     per 100,000 flight hours or events per 1 million departures or legs.
                                                                                              14



   •   monitor the impacts of technological and procedural changes introduced into the
       aviation system; and

   •   contribute to the development of a system that would use data as a basis for safety
       decisions.

However, the presentation’s graphics showing the results of the collected data only
showed rates of events, as illustrated in Figure 3. Although identified as “rate estimates,”
the presentation did not emphasize the preliminary nature of the data or that the findings
indicated by the data would be integrated with other data sets to identify safety concerns
requiring further investigation.

                                    Figure 3. Rates of Airborne Conflicts


                             Estimated Air Carrier Event Rates
                                   <500 Feet Separation

        Question: Airborne Conflict                      Rate estimates based on all data
        Exposure Factor: Events per 1 million legs       collected through October 2002


       3000

       2500

       2000

       1500

       1000

        500

          0
                                                             y
                                              e
                   l




                                m




                                                                        l
                al




                                                                      ta
                                                          od
                                           rg
                             iu
              Sm




                                                                    To
                                         La




                                                       eb
                          ed




                                                     id
                        M




                                                  W




                                    Source: April 2003 NAOMS Management presentation to FAA

By August 2003, NAOMS Project management recognized that the FAA was not
convinced of the utility of NAOMS. The presentation that month to the FAA in
Newport, Rhode Island, placed greater emphasis on the data being a contributor to other
aviation safety databases rather than simply an indicator of event rates. For example,
NAOMS Project management modified the goals presented in April 2003 to include
additional emphasis on NAOMS as an indicator of areas where improvement could have
the greatest impact and on the corroboration and integration of findings with industry and
Government groups. Other presentation slides pointed out that “NAOMS measures event
occurrence, not causes. Notable trends or findings require additional investigation.” The
summary slide also stated: “The NAOMS survey is designed to expose areas that need
                                                                                                              15



further investigation.” Following that presentation, FAA and NASA representatives at
the meeting agreed not to release the survey results before NAOMS working groups were
established and had reviewed and discussed the results.

NAOMS Project management presented a plan to form working groups with the aviation
community and Government stakeholders to ensure that the results were valid and to gain
consensus on the content, level, and timing of the release of NAOMS data. NAOMS
Project management also intended the working groups to build community support for
NAOMS. NAOMS Project management proposed that these working groups would meet
four times a year.

The first NAOMS Working Group meeting took place in December 2003. More than
18,000 air carrier pilot interviews had been completed by that time. NAOMS had
demonstrated the ability to show trends in National Aviation System safety and to
identify potential factors driving those trends. Battelle had actively calculated relative
rates, determined trends of surveyed events, and postulated what caused the change in the
rates of those events, as illustrated in Figure 4, and presented them at the meeting.

    Figure 4. NAOMS Event Rate Trends – Ground Conflict with Aircraft on Runway



                                                                     Battelle Conclusions
                                                                     ¾The trend associated
                                                                     with aircraft on the
                                                                     runway is decreasing
                                                                     sharply.
                                                                     ¾This may be a product of
                                                                     FAA and industry efforts
                                                                     to reduce runway
                                                                     incursions.
                                                                      Relative Rate by Aircraft Type



                                                       Trend
   R
   a
   t
   e
                                                                                     m




                                                                                                          y
                                                                           l




                                                                                             e
                                                                         al




                                                                                           rg


                                                                                                       od
                                                                                  iu
                                                                       Sm




                                                                                         La


                                                                                                    eb
                                                                               ed




                                                                                                 id
                                                                               M




       Spring 2001                                     Spring 2003
                                                                                             W




          Time


                                            Source: December 18, 2003, Working Group meeting

The next NAOMS Working Group meeting was in May 2004. Battelle continued to add
to the survey database and presented trends that attempted to demonstrate the correlation
                                                                                                               16



between the NAOMS data and procedural changes in the National Aviation System. As
illustrated in Figure 5, measures enacted subsequent to the events of September 11, 2001,
provided an unintentional opportunity to demonstrate the ability of NAOMS to identify
safety and efficiency effects of procedural changes.

 Figure 5. NAOMS Event Rate Trends – Pilot Left Cockpit Due to Passenger Disturbance



                                                                       Battelle Conclusions
                                                                       ¾Clear 9/11/01 effect.
                                                                       ¾Still some residual
                                                                       events.
                                                                       ¾Seems to be associated
                                                                       with Widebody oceanic
                                                                       flights?


                                                                        Relative Rate by Aircraft Type




R
a
t
e                                                    Trend
                                                                                      m




                                                                                                           y
                                                                            l




                                                                                              e
                                                                          al




                                                                                            rg


                                                                                                        od
                                                                                   iu
                                                                        Sm




                                                                                          La


                                                                                                     eb
                                                                                ed




                                                                                                  id
                                                                                M




                                                                                              W
    Spring 2001                                          Autumn 2003
         Time


                                                  Source: May 5, 2004, Working Group meeting

However, the two Working Group meetings did not reach a consensus concerning the
validity of the data, which resulted in a lack of community support for NAOMS.
Aviation community and Government stakeholders did not interpret or formally evaluate
the data for relevance as an indicator of aviation safety. Because NASA had agreed not
to release the survey results until the Working Group had validated the data, NAOMS
Project management did not release any results from the collected survey data.

With the AvSSP coming to its designed end, NAOMS Project management did not hold
any other Working Group meetings to validate the survey data. Instead, NAOMS Project
management expended a significant amount of time and resources finding a new
organization to accept NAOMS for permanent service and demonstrating the value of
NAOMS to that new customer: the Joint Implementation Data Analysis Team (JIMDAT)
of the Commercial Aviation Safety Team (CAST). CAST/JIMDAT was interested in the
                                                                                                     17



NAOMS Project in order to monitor and measure safety enhancements introduced into
the National Aviation System, but had little interest in benchmarking safety events
(Section B). In July 2004, NAOMS Project management contracted with Battelle to
modify Section C of the survey for evaluation by CAST/JIMDAT. Battelle designed a
Section C instrument to enable collection of baseline measurements to support an
evaluation of CAST/JIMDAT safety interventions. Additionally, Battelle was to evaluate
the Internet as an alternative method of collecting NAOMS survey data. Both the
CAST/JIMDAT evaluation of Section C and Battelle’s evaluation of the Internet as an
alternative means to collect NAOMS data were positive. As a result, NASA funded the
NAOMS Project in FYs 2005 through 2007 in order to develop the survey as a Web-
based application and transfer NAOMS for permanent service. In January 2007,
NAOMS was transferred to ALPA, which had offered to permanently operate the service
on behalf of CAST.

NASA Could Do More to Disclose NAOMS Project Information
On December 31, 2007, NASA established a Web site 15 for NAOMS that provided
previously unreleased information on the NAOMS Project. Specifically, NASA posted
to the Web site portions of the raw survey data in addition to Battelle’s report, “NAOMS
Reference Report: Concepts, Methods, and Development Roadmap,” November 30,
2007. However, the Web site did not include publications that could add to the public’s
understanding of NAOMS. Specifically, the article, “Beyond Error Reporting Toward
Risk Assessment,” 16 which demonstrated the NAOMS survey data contribution to
ASMM, and NASA Technical Publication, “The Aviation System Monitoring and
Modeling (ASMM) Project: A Documentation of Its History and Accomplishments:
1999–2005,” were not available on the Web site or elsewhere over the Internet. Both of
these documents describe the intended use of the NAOMS survey data, and the data’s
contribution to the ASMM Project, as well as the other associated products developed to
support the ASMM Project.

The usefulness of the NAOMS raw data posted on the NASA-NAOMS Web site has
been called into question. 17 Battelle designed the survey with pilot confidentiality in
mind, and survey respondents indicated that they were confident the survey provided for
their confidentiality. However, because NAOMS did not provide for the limited
immunity from FAA prosecution afforded to pilots for reports filed via ASRS, NASA
had concerns that someone could use the NAOMS data to identify particular pilots or
airlines based on their survey responses. As a result, NASA had Battelle remove


15
     http://www.nasa.gov/news/reports/NAOMS html (updated January 14, 2008; accessed February 4, 2008).
16
     “Beyond Error Reporting Toward Risk Assessment,” Proceedings of the 12th International Symposium
     on Aviation Psychology, April 2003, Dayton, Ohio.
17
     Mathew L. Wald, “NASA Offers Airline Safety Data,” The New York Times, January 1, 2008 (accessible
     as of February 4, 2008, at http://www.nytimes.com/2008/01/01/us/01nasa html).
                                                                                                          18



identifying information before releasing the NAOMS survey data and the Battelle report
that are posted on the NASA-NAOMS Web site.

The redacted data did not include analysis by NAOMS Project management. NAOMS
Project management personnel stated that they had intended to publish an analysis of the
NAOMS data; however, at the conclusion of the data collection efforts, NAOMS Project
management concentrated its efforts on establishing NAOMS as a Web-based application
and transferring NAOMS to ALPA. Additionally, following the release of the Associated
Press article, NASA directed NAOMS Project management not to analyze the data or
produce a report on NAOMS, citing the inability of a report to complete NASA’s review
process by December 31, 2007. NASA has agreed to contract with the National Research
Council (NRC) to conduct an independent assessment of the NAOMS methodology that
will describe “its potential limitations, likely sources of error and estimates of their
magnitude, the potential utility of the data, and recommendations for such use.” 18
However, this assessment of the methodology will not provide analysis of the NAOMS
data that could result in findings and conclusions to help understand the aviation safety
environment that existed from 2001 to 2004.

While NAOMS data alone may have some value, NAOMS was not intended or
developed to stand alone, and the true value of its data cannot be accurately assessed
without comparison and reconciliation with other data sets. The National Academy of
Sciences recognized this fact in its 2004 report, Review of NASA’s Aerospace Technology
Enterprise: An Assessment of NASA’s Aeronautics Technology Programs, 19 which
recommended that NASA “combine the National Aviation Operations Monitoring
Service methodology and resources with the Aviation Safety Reporting System program
data to identify aviation safety trends.” Collaborating with other aviation community and
Government stakeholders to interpret and reconcile the NAOMS data with other aviation
safety data may determine its value as a contributor to preventing aviation mishaps.

NASA did not adequately articulate to the public that NAOMS was one product within
the element of Extramural Monitoring, which was one of four elements within the
ASMM Project of NASA’s Aviation Safety Program. ASMM Project management
designed the products and their associated data to be merged into a systemwide
framework that would enable aviation policymakers to analyze safety risks, make
recommendations for change, predict the effects of changes, and then analyze those
effects.

18
     From an e-mail that Administrator Michael Griffin sent to NASA employees concerning NAOMS,
     January 14, 2008 (accessible as of February 4, 2008, at
     http://www.nasa.gov/pdf/208249main Griffin%20NAOMS%20letter.pdf).
19
     Committee for the Review of NASA’s Revolutionize Aviation Program, Aeronautics and Space
     Engineering Board, Division of Engineering and Physical Sciences, National Research Council of the
     National Academies. Review of NASA’s Aerospace Technology Enterprise: An Assessment of NASA’s
     Aeronautics Technology Programs (Washington, D.C., National Academies Press, 2004, National
     Academy of Sciences). Accessible as of February 4, 2008, at
     http://www nap.edu/catalog.php?record id=10861.
                                                                                      19



Management’s Comments on the Finding and Evaluation of
 Management’s Comments
The Associate Administrator for Aeronautics Research provided general and specific
comments in response to our February 19, 2008, draft of this memorandum (see
Enclosure 3 for the full text of management’s comments). Although we considered these
comments in preparing this final memorandum, and made some changes as the result of
coordination with ARMD personnel, we did not make specific changes to address the
following concerns.

Management’s Comments on NPG 7120.5 Reviews and Peer Reviews. The Associate
Administrator had several concerns with our conclusion that the NAOMS Project had
adhered to the provisions of NPG 7120.5A, as articulated in the following statements:

   •   ARMD does not believe that key programmatic issues were properly reviewed.
       The concern with data quality and the resulting impact to dissemination was never
       properly briefed to program management or other stakeholders.

   •   ARMD has reservations about the composition and independence of the
       evaluating group that conducted the reviews of NAOMS.

   •   ARMD has serious reservations about the lack of technical peer review of the
       NAOMS methodology.

Evaluation of Management’s Comments. The Associate Administrator stated that by
concluding the NAOMS Project had adhered to the provisions of NPG 7120.5A, we
inferred that peer review was satisfied. We did not evaluate NAOMS Project
management in regard to peer review because NPG 7120.5A does not provide a
definition or guidance for the execution of peer review. NPG 7120.5A only provides
broad guidance for project and program review. In that guidance, the NPG states, “The
conduct of each review and assessment shall ensure the benefits of peer experiences and
perspectives and shall provide opportunities for customer participation.” Based on the
composition and audience of the many presentations and NAOMS Project management
actions following presentations, we concluded that the NAOMS Project had met the
intent of the guidance.

Presentations to various audiences and documented communications show that Aviation
Safety Program personnel were aware of the issues concerning the NAOMS data and the
purpose of the working groups. ASMM and Extramural Monitoring Project Plans
defined the customers and external partners involved in ASMM and the planning and
execution of NAOMS. Therefore, we concluded that higher-level program management
and other aviation stakeholders, including the stated customers, were aware of the
NAOMS data issues.

Management’s Comments on Inference of NAOMS’ Success. The Associate
Administrator commented that our statement, “the NAOMS Project demonstrated a
                                                                                          20



survey methodology to quantitatively measure aviation safety . . . and generated interest
and acceptance of NAOMS by some of the aviation community” may be incorrectly
perceived by some readers that the NAOMS methodology was successfully
demonstrated. In addition, the Associate Administrator stated that due to the lack of
documentation and subsequent technical peer review, it is impossible to make this claim.

Evaluation of Management’s Comments. As described in our scope and methodology
discussion (see Enclosure 1), we did not assess the validity of the data or the NAOMS
survey methodology. Our conclusion that some of the aviation community accepted
NAOMS was based on ALPA accepting NAOMS for permanent service in January 2007.

Recommendations, Management’s Response, and Evaluation of
 Management’s Response
Revised Recommendation. In consideration of management’s comments in response to
draft Recommendation 2.b, we modified that recommendation.

Recommendation 1. We recommended that the Associate Administrator for
Aeronautics Research lead and coordinate the efforts of aviation community and
Government stakeholders to collaborate and interpret the raw NAOMS data to determine
whether the data were useful for NAOMS’ intended purpose: to produce data from which
trends might be identified and considered in concert with other ASMM activities.

   Management’s Response. The Associate Administrator concurred with the
   recommendation, stating that there is a need to determine whether NAOMS
   accomplished its intended purpose of producing data from which trends might be
   identified and considered in concert with other ASMM activities. However, the
   Associate Administrator stated that NASA’s primary role should be to determine
   the viability of the concept, which is consistent with the primary research goals of
   NAOMS. Therefore, a better understanding of the NAOMS methodology and its
   limitations is needed instead of an analysis of the raw data. ARMD will focus on
   determining whether the methodology is sound and whether the NAOMS
   methodology would be useful in future aviation safety analyses. Consequently,
   ARMD has initiated a contract with the NRC to conduct an independent assessment
   of the NAOMS methodology. The estimated completion date of the NRC assessment
   is June 30, 2009.

   Evaluation of Management’s Response. The intent of our recommendation was to
   determine whether the NAOMS research produced valid data from which safety
   trends might be identified. We recognize that, as an alternative to interpreting the raw
   data, validating the NAOMS survey methodology is a reasonable and vital step in
   making that determination. ARMD’s planned action to validate the methodology and
   investigate its applicability to future aviation safety analyses is, therefore, responsive
   to the intent of the recommendation. The recommendation is resolved and will be
   closed upon completion and verification of management’s action.
                                                                                            21



Recommendation 2.a. We recommended that the Associate Administrator for
Aeronautics Research release and post on NASA’s public Web site NAOMS-related
information, to include the articles and other research papers associated with NAOMS
and ASMM.

   Management’s Response. The Associate Administrator concurred, stating that
   ARMD has actively supported publishing all relevant NAOMS and ASMM material
   and will post links to such documents, including the NRC report, as they become
   available. Subject to adherence to public release guidelines, ARMD intends to post
   the article, “Beyond Error Reporting Toward Risk Assessment,” and NASA
   Technical Publication, “The Aviation System Monitoring and Modeling (ASMM)
   Project: A Documentation of Its History and Accomplishments: 1999–2005,” on the
   NASA-NAOMS Web site by April 30, 2008.

   Evaluation of Management’s Response. ARMD’s planned action is responsive.
   We recognize that updating the NASA-NAOMS Web site is a continuing process, as
   evidenced by the update on February 6, 2008. The recommendation is resolved and
   will be closed upon completion and verification of management’s action.

Recommendation 2.b. If the NRC study validates the NAOMS survey methodology, we
recommend that the Associate Administrator for Aeronautics Research release and post
on NASA’s public Web site a detailed report published by NAOMS Project management
that includes an analysis of the NAOMS research and findings and conclusions gained
from the survey data.

   Management’s Response. The Associate Administrator nonconcurred with our draft
   recommendation, stating that ARMD does not intend to publish a detailed report for
   the following reasons:

       •   due to the lack of technical publications since the inception of the NAOMS
           Project, there is little confidence that a thorough and accurate report can be
           produced, and

       •   there is diminishing value in the NAOMS data for assessing the state of the
           current aviation safety environment.

   Additionally, the Associate Administrator questioned the relevance of analyzing
   NAOMS data that is several years old, considering that new ways to collect and
   analyze aviation operational data have been put in place since NAOMS data was last
   collected. The Associate Administrator stated that the most important work related to
   NAOMS is to better understand the validity of the survey methodology and,
   consequently, resources could be put to better use in connection with the Next
   Generation Air Transportation System.

   Evaluation of Management’s Response. We consider the Associate
   Administrator’s comments partially responsive. The intent of our recommendation
                                                                                      22



   was to bring closure to the NAOMS Project in accordance with draft NPR 7120.8,
   which states that the “Project Lead should ensure publication of at least one
   peer-reviewed technical paper or the posting of a final report external to NASA to
   ensure wide dissemination of technical information.” Although we maintain that
   valuable insight into the aviation safety environment might be gained from analyzing
   the collected data and publishing findings and conclusions, we recognize that the
   NAOMS survey methodology may prove to be the most useful component of the
   NAOMS Project and that the data itself may be of little use in evaluating the current
   aviation safety environment. Therefore, we revised our recommendation to take into
   consideration that the NRC study will assess the NAOMS methodology.

We request that the Associate Administrator for Aeronautics Research provide additional
comments on Recommendations 2.b in response to this final memorandum. The
additional comments should address the intended uses of the collected NAOMS data if
the NRC study validates the NAOMS survey methodology. We request that management
provide the additional comments by April 30, 2008.

We appreciate the courtesies extended during our review. If you have any questions, or
need additional information, please contact Mr. Raymond Tolomeo, Science and
Aeronautics Research Director, at 202-358-7227.


   signed
Evelyn R. Klemstine

3 Enclosures

cc:
Chief, Safety and Mission Assurance
                                     Scope and Methodology
We performed this review from November 2007 through February 2008 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform audits to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained during this review provides a reasonable basis for our findings and
conclusions based on our objectives.

We initially concentrated our efforts on gaining an understanding of the background of
NAOMS, including its history, funding, and objectives, and the intended use of the
collected survey data. We traveled to Ames Research Center and held interviews with
the head of NASA’s Human Systems Integration Division, NAOMS and ASMM Project
management personnel, Battelle personnel, and the NAOMS Project survey
methodologist. At NASA Headquarters, we interviewed personnel who had been
involved in NAOMS, including the Aviation Safety Program Director at the time, the
FAA representative to NASA at the time, the NAOMS principal investigator, and the
current staff of NASA’s Aeronautics Research Mission Directorate.

To determine the adequacy of NAOMS Project and contract management, we compared
NAOMS Project management actions with the criteria contained in NPD 7120.4A and
NPG 7120.5A. We reviewed applicable documentation, including the CPFF contracts
between Ames Research Center and Battelle and the associated NASA Forms 1680; 20
presentations prepared by Battelle and NAOMS management; Battelle’s Field Trial
Training Manual; and Extramural Monitoring and ASMM Project Plans from 1999, 2000,
and 2004.

For our review of funding, we analyzed the original estimate of NAOMS planned funding
requirements using Battelle’s “Cost and Price Proposal,” July 12, 1999, and Battelle’s
“Response to NASA’s Deficiency Report and Clarification Report,” 21 August 20, 1999;
compared them with the 1999 Extramural Monitoring and 2000 ASMM Project Plans;
and evaluated the funds actually expended.

We did not assess the validity of the data or the NAOMS survey methodology because
that was beyond the scope of our review, as were issues related to the confidentiality of
the data.




20
     NASA Form 1680, “Evaluation of Performance,” July 2000.
21
     After Battelle’s proposal was submitted, ASMM Project management submitted “Clarification Report and
     Deficiency Report” to obtain clarification of and corrections to the proposal.



                                                                                           Enclosure 1
                                                                                           Page 1 of 2
Computer-Processed Data. We did not use computer-processed data to perform this
review. Although Battelle used NAOMS data in the development of the presentations
showing event rates and trends, our review focused on the management of NAOMS.
Therefore, the reliability and validity of the data have no impact on our conclusions.

Prior Coverage. Though not specific to NAOMS or ASMM, the NASA OIG report,
“NASA’s Aviation Safety Program” (IG-00-053, September 26, 2000), highlighted
various challenges NASA had to ensure the success of its Aviation Safety Program.
Those challenges included the technical development of products, user implementation of
the resulting technology, and availability of resources (staffing, time, and dollars). The
audit concluded that some of the goals were optimistic and could lead to unfulfilled
expectations by Congress, the aviation community, and the public. The report can be
accessed over the Internet at
http://www.hq.nasa.gov/office/oig/hq/audits/reports/FY00/index.html.




                                                                              Enclosure 1
                                                                              Page 2 of 2
                Chronology of NAOMS Presentations

•   1997.
       ¾ Concept for monitoring presented to the ASRS Advisory Committee.
       ¾ Concept for monitoring reviewed and commented upon at an international
         workshop held at NASA Headquarters.

•   1998.
       ¾ Proposal for monitoring presented to the Flight Safety Foundation Icarus
         Committee’s Working Group on Flight Operational Risk Assessment
         System.
       ¾ Monitoring concept described to representatives of the FAA Office of
         System Safety.

•   1999. Methodology for the NAOMS Survey, presented at the “Workshop on the
    Concept of NAOMS,” Alexandria, Virginia.

•   2000. Field Trial Results, presented at “NAOMS Workshop,” Washington, D.C.

•   2002. NAOMS Project Overview, presented to the NASA Aviation Safety and
    Security Program Office, Langley, Virginia.

•   2003.
       ¾ NAOMS Overview and Status, presented to the FAA, Washington, D.C.
       ¾ NAOMS Program Review, presented to the National Research Council,
         Ames Research Center
       ¾ NAOMS Overview and Status, presented to the FAA/JIMDAT/CAST,
         Newport, Rhode Island.
       ¾ NAOMS Survey methodology, including design decisions and scientific
         basis, presented at “NAOMS Working Group Meeting #1,” Seattle,
         Washington.

•   2004. NAOMS Survey methodology (NAOMS design decisions), presented to
    the National Transportation Safety Board, Washington, D.C.




                                                                       Enclosure 2
                                                                       Page 1 of 1
Management’s Comments




                        Enclosure 3
                        Page 1 of 5
Enclosure 3
Page 2 of 5
Enclosure 3
Page 3 of 5
              Revised




Enclosure 3
Page 4 of 5
Enclosure 3
Page 5 of 5
